     T         estimony

                     STATEMENT OF
                  ROBERT J. LIEBERMAN
             ASSISTANT INSPECTOR GENERAL,
                     FOR AUDITING,
                DEPARTMENT OF DEFENSE
                      BEFORE THE
 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT, INFORMATION
                   AND TECHNOLOGY
          COMMITTEE ON GOVERNMENT REFORM,
        AND THE SUBCOMMITTEE ON TECHNOLOGY,
                COMMITTEE ON SCIENCE,
        UNITED STATES HOUSE OF REPRESENTATIVES
       ON THE YEAR 2000 TECHNOLOGY CHALLENGE
            AT THE DEPARTMENT OF DEFENSE



Report Number 99-105        DELIVERED: March 2, 1999


                Office of the Inspector General
                    Department of Defense
                                                                 2


Mr. Chairman, Madam Chair and Members of the Subcommittees:



Thank you for the opportunity to discuss the challenge

confronting the Department of Defense (DoD) because of the so-

called Millenium Bug, which is the inability of many computers

to process certain dates, especially those ending with the

digits “00.”    The Department’s extensive dependence on computing

technology for conducting both military operations and support

functions makes any potentially widespread disruption or

degradation of system performance a major concern.   Therefore

the Secretary of Defense and Chairman, Joint Chiefs of Staff,

have appropriately termed the Millenium Bug a major threat to

military readiness.



Complexity of the Challenge



The task of ensuring there is no significant impairment of the

Department’s ability to execute its missions and day to day

functions is one of the most complex challenges ever faced by

DoD managers.    This is primarily because of the sheer magnitude

of the problem.    Consider that:



     n   The DoD uses about 28,000 information systems, of which

         approximately 2,300 are mission critical.
                                                            3




n   About 1.5 million DoD computers exchange data with

    organizations as diverse as other DoD components,

    allies, coalition partners, defense contractors,

    financial institutions, the National Command Authority,

    other Federal agencies, and state governments;



n   Hundreds of thousands of pieces of equipment, ranging

    from the largest weapon systems to hand held

    electronics, contain tens of millions of microprocessor

    chips, some of which are date sensitive;



n   The cost of the DoD year 2000 conversion effort is

    estimated at $2.9 billion;



n   The Department depends on hundreds of governments and

    firms, domestically and abroad, to provide utilities

    such as power, telecommunication links and water to over

    500 major military bases, many of which have populations

    equivalent to small cities;



n   When U.S. forces deploy, they depend on allies and host

    nations for a wide range of additional logistical
                                                                 4


         support services, as specified in thousands of

         agreements with dozens of governments; and



     n   The DoD purchases goods and services other than

         utilities, often electronically, from tens of thousands

         of contractors, 6,500 of which are considered critical

         suppliers.



In addition, the DoD year 2000 conversion challenge has been

made considerably more difficult by a combination of factors

related to management culture.   Those factors included:



     n   A legacy of very decentralized information technology

         resources management, which led to a runaway

         proliferation of systems that was only recently

         addressed;



     n   Inadequate management visibility initially into what

         comprised the systems inventory, which systems were

         mission critical and what the interfaces were;



     n   Lax configuration management policies;
                                                                5


     n   An initial tendency to view the Millenium Bug as a

         purely technical problem that could be solved by the

         information technologists, without a need for much

         involvement by managers and commanders;



     n   Chronically poor documentation of systems and software

         modifications, so that much old, date sensitive computer

         code is hidden beneath newer code; and



     n   Resistance to reprioritizing resources to deal with the

         year 2000 problem early, especially if diverting

         resources would slow down other initiatives.



Audit and Inspection Community Role



The IG approached the Department’s Chief Information Officer in

early 1997 with an offer to help him achieve sufficient

oversight and management control in those areas considered to

have the most risk.   The Chief Information Officer was very

receptive to the concept of relying extensively on DoD internal

audit capabilities to assure management awareness, validate

reported progress and identify inadequately addressed barriers

to mission continuity.   Based on that informal partnership

agreement, we have provided 50 “Y2K” audit reports to the
                                                                  6


Department over the past year and a half, and are currently

working on about the same number of additional audits.    Coverage

of Y2K conversion issues has been our top discretionary audit

priority in fiscal years 1998 and 1999.    In addition, we have

coordinated Y2K efforts by the Military Department audit and

inspection organizations, which have issued numerous reports in

accordance with their own Y2K coverage agreements or taskings

within their Services.   We have also worked closely with the

General Accounting Office and exchanged information with our

counterparts in several countries.



Generally, DoD managers and commanders have been extremely

cooperative and responsive to audit advice.    To ensure that

senior officials are aware of our audit results and so that we

can effectively focus on high risk areas, we participate in

Office of the Secretary of Defense and Joint Staff Y2K

management conferences, workshops and planning sessions.    I meet

personally with senior Chief Information Officer aides at least

twice a month and attend the Deputy Secretary of Defense Year

2000 Steering Group monthly briefings.    Virtually all audit

findings and recommendations have resulted in prompt corrective

action, which is often initiated by management while the

auditors are still on site and before a formal report is even

issued.   In addition, when Deputy Secretary Hamre was apprised
                                                                 7


of repeated audit findings regarding inaccurate reporting of Y2K

progress, he promptly convened a special session of senior DoD

officials to hear our results and reemphasized the need to be

responsive to audit recommendations to improve the quality of

reporting.   Top DoD management’s encouragement of intensive

auditing of Y2K progress and its responsiveness to audit

results, positive or negative, have been both gratifying and

challenging to the audit community.



Examples of our Y2K audit reports are summarized in the

attachment to this statement.



Slow Start, But Likely a Strong Finish



As reflected in the rather low grades that Chairman Horn gave to

DoD Y2K performance initially, the Department got off to a slow

start.   In hindsight, most managers underestimated both the

complexity of the problem and the commitment of resources and

executive managers’ time that would be necessary.   As late as

last summer, audits were indicating a widespread lack of

awareness; insufficient Y2K staffing at all levels of the

Department; and only rudimentary Y2K planning at dozens of

crucial organizations, including most combatant commands, most
                                                               8


functional area staffs within the Office of the Secretary of

Defense, many support commands and most installations.    Although

many DoD organizations were working hard on the remediation of

mission critical information systems, a high percentage of

remediation plans provided for completion very late in calendar

year 1999 and large scale “system of systems” test plans were in

vague conceptual form only.   There was even some resistance to

the notion of modifying previously planned exercises to

accommodate Y2K scenarios or to plan for other large scale

testing.



A decisive turning point came in early August 1998, when the

Secretary of Defense declared that the Department’s progress up

to that point had been insufficient.   Both the Secretary and the

Deputy Secretary prescribed a number of measures during that

timeframe to accelerate the Department’s effort and to move

accountability for Y2K success beyond the boundaries of the

information technology community to all senior managers and

commanders.   The strong and unambiguous message that Y2K was a

genuine threat to readiness, which needed to be treated as such

by the leaders of the operating forces and the acquisition,

logistics, finance and other support communities, had the

intended effect.
                                                                9




The number of mission critical systems that have been certified

as Y2K compliant has grown as follows:



          February 1998:         706     (24%)

          May 1998      :        812     (29%)

          August 1998   :      1,236     (39%)

          November 1998:       1,352     (52%)

          February 1999:       1,670     (72%)



Equally important, efforts have greatly accelerated over the

past few months to assess the Y2K readiness of DoD-owned,

infrastructure; of the private sector infrastructure on which

DoD also depends; of the diverse range of data exchange partners

and of host nations abroad.   In addition, one of the largest

testing efforts ever undertaken by the Department has now

started and will continue through calendar year 1999.



Inspector General, DoD, Assessments



In the Inspector General, DoD, semiannual report to the Congress

for the six month period ending September 30, 1998, and again in

a December 1998 summary report on 142 audit and inspection
                                                               10


reports issued between August 1997 and early December 1998, we

concluded that the Secretary of Defense assessment that progress

had been insufficient as of August 1998 had been well founded.

We also took note of the increased emphasis and progress by the

Department over the last few months of 1998.



We will be issuing another summary report this month.    It will

reflect the results of audits and inspections conducted in late

1998 and early 1999.   The results are generally much more

positive than those from last year and are another indicator

that the pace and effectiveness of the DoD Y2K program have

improved significantly.   With sustained close management

attention through 1999, we are confident that the Department can

achieve its goal of ensuring the continuity of critical

operations and capabilities as the millenium passes.    However,

much work remains to be done.   No assessments of overall

progress can be entirely credible in the absence of significant

quantities of test results, which will not be available for a

few more months, and the belated start in some areas has caused

a fairly high risk level to persist there.



Those areas of continuing concern include:
                                                               11


     n    Well over 600 mission-critical systems that remain Y2K

          non-compliant;



     n    infrastructure, especially overseas;



     n    supplier readiness;



     n    untested contractor off the shelf products;



     n    contingency planning;



     n    mainframe computer platforms; and



     n    greatly compressed testing schedules.



Testing



The continuing concern that I would like to focus on today

relates to the testing challenge.   The DoD Y2K conversion effort

is unprecedented in many ways, one of which is the scope of the

crucial Y2K testing that will continue through the end of 1999.

In addition to the individual system/application testing that is

performed before a system is certified as Y2K compliant, the
                                                                12


various DoD components are engaged in three kinds of “higher

level” testing:



     n   Intersystem integration testing at the Military Service

         or lower organizational levels, either as special Y2K

         tests or as part of routinely performed activity such as

         Navy battlegroup system integration tests.



     n   More than 76 end-to-end system test events, covering 93

         processes in functional areas such as finance or command

         and control, and involving over 600 mission critical

         systems;



     n   Approximately 31 operational evaluations by the unified

         commands around the world.



We cannot over emphasize the need for robust in-depth testing.

The sheer number of systems involved, the risk of incompatible

Y2K fixes because of the number of different firms and

individuals involved in remediating code, and the compression of

this ambitious testing schedule into just over a year pose a

formidable management challenge.   In our view, it is the most

daunting of the remaining Y2K challenges.   A significant portion

of our auditing emphasis will be directed to this area.
                                                                13




We will be looking for indicators of good test planning, such as

detailed written test plans; management controls to ensure

appropriate oversight of both the test plans and the reporting

of test results; and provision for sufficient technical support

before, during, and after the test.   We fully anticipate that

numerous previously undetected and perhaps unanticipated

“glitches” will surface during each of the various types of

tests.   If not, the rigor of the tests-—and their credibility-—

may be called into question.   This is a significant mindset

change for many managers and commanders, who by habit and

training may tend to seek perfect scores.   Identifying computer

code that is still not fixed is a victory, not a defeat, for the

testing process.



It is also important that managers be encouraged to seek out the

most effective available Y2K diagnostic tools and not hesitate

to test or retest their code, whether or not their systems are

mission-critical or are included in multi-system testing.      More

and more powerful tools are entering the market place and can

provide extra assurance.
                                                             14


Conclusion



In conclusion, we believe that the DoD is overcoming the

increased risk posed by its belated start on several facets of

the Y2K conversion effort.   As the intensive effort continues,

we remain committed to our partnership with the Department on

this difficult matter and will continue striving to provide DoD,

the President’s Council on Y2K Conversion, the Office of

Management and Budget, and Congress with reliable, candid and

timely feedback on Y2K progress.




Attachment
               Examples of Year 2000 Audit Results
                 Office of Inspector General, DoD


Report No. 99-086, Year 2000 Issues Within the U.S. Pacific
Command’s Area of Responsibility: III Marine Expeditionary
Force, February 22, 1999. This was a good news report. The
III Marine Expeditionary Force had taken a proactive approach to
ensuring that its information systems will be compliant in the
year 2000. The III Marine Expeditionary Force had made progress
with actions to assess system compliance, implement corrective
actions, and accurately report status issues for potential year
2000-related failures. When the III MEF year 2000 conversion
effort is completed, including participation in further testing
and operational evaluation, the risk of mission capability
impairment because of year 2000 problems should be low.

Report No. 99-081, Tooele Chemical Agent Disposal Facility
Preparation for Year 2000, February 16, 1999. The Tooele
Chemical Agent Disposal Facility was considerably behind Army
and DoD schedules for assessing year 2000 vulnerability and
carrying out conversion measures. In addition, Tooele Chemical
Agent Disposal Facility had not prepared the required year 2000
documentation, which are the assessment plan, the contingency
plan, the risk management plan, and the validation plan and
schedule. During the audit, reporting errors were corrected
and Army management emphasis increased; however, estimated
completion dates for the conversion extended well into calendar
year 1999. Successful completion of all year 2000 conversion
measures is necessary to avoid operational impairment and
obviate any safety concerns. The Army agreed and aggressive
measures are being taken to accelerate the conversion effort.

Report No. 99-079, Year 2000 Conversion Program at the Dugway
Proving Ground Major Range and Test Facility, February 9, 1999.
A good news report. The renovation of both business and test
systems was being effectively managed. Dugway Proving Ground
identified seven systems for assessment, developed contingency
plans, tested all systems and maintained all the necessary
documentation. The range met the Army’s deadline of completing
the renovation phase by September 1998. Six of the seven
systems completed the implementation phase by December 31, 1998.
The meteorology system completed the implementation phase in
February 1999.

Report No. 99-076, Year 2000 Posture of DoD Mid-Tier Computer
Systems, February 3, 1999. Good news report. Managers of the
14 mid-tier systems reviewed in the audit were actively managing
each primary element to achieve year 2000 compliance, and they
appropriately reported the year 2000 status of each mission-
critical computer system. The major reason that mid-tier
systems were appropriately managed and reported was because
the primary elements of each system were the responsibility of
a single manager. Additionally, Army and Air Force year 2000
                                                             2

reporting guidance specifically requires that Service
sub-components track and report each primary element of
computer systems. Further, some program managers prudently
went beyond existing formal requirements to employ further risk-
reduction tactics, such as testing vendor-validated products.
Accordingly, for the mid-tier systems reviewed, we judged that
the risk of system failure at the turn of the century because
of a primary element being overlooked was low.

Report No. 99-063, Global Positioning System Receiver Compliance
with Year 2000 Requirements, December 31, 1998. The Global
Positioning System (GPS) is a worldwide, satellite-based radio
navigation system developed by DoD. The system is able to show
a user’s position on or above the earth with great precision,
regardless of weather conditions. Dates and times are important
to GPS receivers. The receivers determine a position by
comparing the time generated by an internal clock to the times
received from the fleet of GPS satellites. The difference
between the times is used by the receiver to compute its
distance from the satellite and hence compute its location.

In February 1998, the Assistant Deputy Under Secretary of
Defense (Space Systems and Architectures) issued a memorandum,
“Global Positioning System Year 2000 Compliance,” tasking the
GPS Joint Program Office to assess the Y2K compliance status of
all DoD GPS receivers. The Assistant Deputy Under Secretary
also directed organizations that have procured non-validated
receivers from sources other than the program office to provide
the program office with the Year 2000 compliance status of those
receivers by April 30, 1998.

The audit indicated that the GPS Joint Program Office had not
completed the inventory and Year 2000 assessment of non-
validated GPS receivers procured directly by DoD organizations,
civilian Federal agencies, Defense contractors, and allied
nations. The delay was primarily caused by lack of cooperation
by many of those organizations. In addition, DoD had not done
enough to mitigate risk by testing commercial receivers. As a
result, systematic distribution of reliable information on Y2K
compliance of the equipment to users has been hampered,
increasing the risk of mission disruption.

After expressing some initial concern about the need for testing
commercial receivers, management agreed with the report and is
taking action.

Report No. 99-059, Summary of DoD Year 2000 Conversion—Audit and
Inspection Results, December 24, 1998. This report summarized
Y2K issues identified in 142 General Accounting Office;
Inspector General, DoD; Army; Navy; and Air Force Audit reports
from August 1997 to December 1998. It also included information
reported by the Inspector General, Navy, and the Inspector
General, Marine Corps. The Inspector General, Army, and the
Inspector General, Air Force, had not yet reported on Y2K.
                                                             3


Year 2000 conversion problems were identified within the
following areas:

     •    management oversight and awareness (95 reports),
     •    reporting (79 reports),
     •    assessment (97 reports),
     •    resource requirements estimation (48 reports),
     •    interface identification and agreements (74 reports),
     •    prioritization (14 reports),
     •    testing (83 reports),
     •    contingency and continuity-of-operations planning
             (104 reports),
     •    contracts (21 reports), and
     •    infrastructure (44 reports).

The results supported the DoD acknowledgements that the year
2000 conversion poses a high risk for a very wide range of DoD
functions and organizations and that the conversion progress
as of late FY 1998 had been insufficient. These results were
briefed to the Deputy Secretary of Defense and DoD Y2K Steering
Group in early December 1998.

Report No. 99-058, “Year 2000 Conversion of Defense Critical
Suppliers,” December 18, 1998. Until late FY 1998, outreach
efforts to suppliers of National Defense goods and services
were left to individual DoD components to organize, execute
and monitor. As a result, the emphasis put on outreach to
suppliers varied greatly among DoD acquisition and logistics
organizations. Many organizations had no organized outreach
effort. DoD faced an increased risk of production and delivery
disruptions because of the belated outreach focus to ensure
suppliers’ Y2K conversion. If commercial suppliers of critical
supplies experience disruptions as a result of computer
failures, the logistics pipeline may be compromised.

During the audit, we worked with management to accelerate
efforts in this area. The DoD established a Joint Supplier
Capability Working Group. By October 1998, this team had
established the methodology for identifying critical items and
their suppliers, as well as a reasonable action plan for
assessing critical suppliers’ year 2000 compliance. A survey of
6,500 critical suppliers began in February 1999. The Defense
Logistics Agency’s Defense Contract Management Command will
conduct most of the survey. The IG, DoD, is monitoring the
effort and providing particular assistance to Defense supply
centers.

Report No. 99-027, DoD Base Communications Systems Compliance
with Year 2000 Requirements, October 30, 1998. The audit
indicated 131 non-compliant telecommunication switches would not
be replaced or made compliant by the March 31, 1999 deadline
established by the Office of Management and Budget. This high
risk developed because of inefficient identification of the
                                                             4

switch inventory, insufficiently high priority given to these
critical items, and funding problems. Management agreed and
additional emphasis was put on switch replacement or
remediation. The IG, DoD, is tracking progress on each switch
in every DoD component organization.

Report No. 99-022, Year 2000 Conversion at the Army Major Range
and Test Facilities, October 29, 1998. The three Army major
range and test facilities visited, the Aberdeen Proving Ground,
the White Sands Missile Range, and the Yuma Proving Ground, were
on schedule. All required documentation and certification forms
for the compliant systems were completed as required by the Army
Action Plan and the DoD Management Plan.

Report No. 98-207, Year 2000 Contract Language for Weapon
Systems, September 22, 1998. Of 16 weapon systems reviewed, 9
weapon systems had contracts that did not contain language from
Federal Acquisition Regulation 39.106, “Year 2000 Compliance.”
In July 1998, when the initial audit results were briefed, the
Under Secretary of Defense for Acquisition and Technology had
not yet issued Y2K guidance for weapon systems. On August 7,
1998, the Secretary of Defense directed the Services and Defense
agencies to report on each major acquisition system under their
purview. Each report was to address areas of Y2K compliance or
noncompliance for each system. The Secretary of Defense also
directed that funds not be obligated for any contract for
information technology or national security systems that process
date-related information, if that contract did not contain Y2K
requirements specified in the Federal Acquisition Regulation.
During the audits, the program management offices took action
to ensure that the contracts and solicitations for the nine
deficient weapon system programs would include Y2K compliance
language.

Report No. 98-193, Evaluation of the Defense Megacenters Year
2000 Program, August 25, 1998. Although much progress had been
made in converting the Defense Megacenters systems and platforms
to Y2K compliance, problems remained in three areas: reporting,
testing, and contingency planning.

The Defense Information Systems Agency Western Hemisphere Y2K
status reports for mainframe executive operating software were
incomplete and could be misinterpreted. The reports showed that
the executive software product inventory was 60 percent
compliant, but did not show that the domain compliance itself
was zero percent. The Defense Information Systems Agency
Western Hemisphere and the Central Design Activities, which are
part of the Military Departments and Defense agencies, had joint
responsibility for fixing segments of the domains. However,
coordination needed improvement.

On July 2, 1998, the Deputy Secretary of Defense directed
written agreements between the Defense Information Systems
Agency and domain users. In addition, the Office of the
                                                               5

Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) coordinated a Secretary of
Defense memorandum that stated funds were not to be obligated
for any domain user that failed to sign explicit test agreements
with the Defense Information Systems Agency by October 1, 1998.
The memorandum, dated August 7, 1998, also states that the
Defense Information Systems Agency was to provide a report to
the Office of the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) by October 15, 1998,
listing all domain users that failed to sign test agreements
with the Defense Information Systems Agency by October 1, 1998.
Finally, the Office of the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence) stated that
it would request that the Y2K compliance reports from the
Defense Information Systems Agency include items that would
identify domains, mission-critical systems, or national security
systems that had a high risk of Y2K noncompliance.

The IG, DoD, is continuing to monitor the year 2000 conversion
efforts at the Defense Megacenters.

Report No. 98-147, Year 2000 Certification of Mission-Critical
DoD Information Technology Systems, June 5, 1998. The audit
indicated that DoD components certified only 109 (25.3 percent)
of the 430 systems reported as Y2K compliant in November 1997.
Systems were not certified because DoD components did not
adequately implement and enforce the guidance in the DoD
Management Plan or their own Y2K guidance. Additionally, the
initial DoD Management Plan was not clear as to specific Y2K
certification requirements.

The Office of the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) concurred with our
recommendations and instituted several measures, including the
following:

     •    requiring that all mission-critical systems have
          independent tests and operational contingency plans,

     •    updating the DoD Management Plan in June 1998 with
          better guidance on certification and testing, and

     •    developing a new Y2K database that would include the
          target date to complete each phase of Y2K remediation
          for each mission-critical system.

Report No. 98-065, DoD Information Technology Solicitations and
Contract Compliance for Year 2000 Requirements, February 6,
1998. The DoD initiated actions to address the new procurement
aspects of the Year 2000 issue in mid-1996 in an Assistant
Secretary of Defense (Command, Control, Communications, and
Intelligence) memorandum, “Year 2000 Computing Problem with
Personal Computers and Workstations,” May 8, 1996. Federal
Acquisition Regulation section 39.106, “Year 2000 Compliance,”
                                                             6

subsequently provided mandatory guidance to assist agencies in
acquiring only those information technology products and systems
that are Year 2000 compliant.

The audit indicated that initial DoD compliance with the
requirements was poor. Twenty of the major 35 indefinite-
delivery/indefinite-quantity and indefinite-deliver-requirement
information technology contracts (for commercial off-the shelf
products) that were audited did not have the required Federal
Acquisition Regulation Year 2000 compliance language. None of
the 35 contracts required testing of purchased products. As
a result, DoD had no assurance that information technology
products purchased were year 2000 compliant. Additionally,
because 33 of the 35 contracts were available for use by other
Federal agencies, nonconforming contract deliverables could
negatively affect non-DoD systems.

Based on initial audit results, DoD issued stronger guidance on
December 18, 1997, before our final report was issued.
Subsequently, the DoD components reported that the 20 deficient
contracts had been modified. Guidance on testing was also
improved. Proper use of Y2K contract clauses is now routinely
checked in most Y2K audits; some isolated instances of continued
non-compliance have been reported and corrected.
